DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General

      A Review of Homeland Security 

      Activities Along a Segment of the 

        Michigan-Canadian Border 

            (Unclassified Summary) 





OIG-07-68                       August 2007
Unclassified Summary
                  We reviewed DHS’ efforts to secure the border between the cities of Detroit
                  and Port Huron against threats targeted at, through, and between five specific
                  ports of entry.

                  Our objective was to identify the challenges facing DHS components charged
                  with securing that segment of the border, and to determine what steps are
                  being taken to meet those challenges. We also assessed DHS’ interactions
                  with its international, federal, state, local, and private sector partners who also
                  claim some jurisdictional responsibility for border security operations.

                  We conducted site visits of all five ports of entry. We interviewed department
                  officials from each of the relevant DHS components in the Washington, DC
                  area, as well as in Detroit and Port Huron, Michigan. We also met with
                  officials from several federal, state, and local agencies, as well as those in the
                  private sector. In addition, we reviewed relevant intelligence reports, risk and
                  threat assessments, management directives, standard operating procedures,
                  and statistical data.

                  We identified several concerns regarding the integration and dissemination of
                  intelligence, the protection of critical infrastructure/key resources, local
                  targeting capabilities, the extent of local performance measures, and the need
                  for additional technological resources.

                  We are recommending that DHS increase its local intelligence presence; better
                  coordinate the funding of protective measures for critical infrastructure/key
                  resources; introduce additional standard operating procedures at the ports of
                  entry; and deploy additional technological resources along the border. DHS is
                  already taking steps toward remedying some of these issues in response to
                  concerns that were raised during the course of our review.




                                          Unclassified Summary

         A Review of Homeland Security Activities Along a Segment of the Michigan-Canadian Border 


                                                 Page 2
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
